OFFICE OF INSPECTOR GENERAL
  for the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
MANAGEMENT OF ITS
INTERAGENCY AGREEMENTS
AUDIT REPORT NO. M-000-08-005-P
September 30, 2008




WASHINGTON, DC
Office of Inspector General
   for the
Millennium Challenge Corporation




September 30, 2008


Ambassador John Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Ambassador Danilovich:

This letter transmits the Office of Inspector General’s final report on Audit of the Millennium
Challenge Corporation’s Management of its Interagency Agreements for your review and
comments. In finalizing our report we noted that there were no recommendations for your action,
you notified us that you had no written comments. Therefore, we have not included an Appendix
II, which normally would have reflected management comments in their entirety.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


Alvin Brown /s/
Assistant Inspector General/MCC
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives.............................................................................................................. 3

Audit Findings ................................................................................................................. 4

Did the Millennium Challenge Corporation establish
effective management controls for deciding on the use of
section 614(d) of the Millennium Challenge Act of 2003
and sections 632(a) and (b) of the Foreign Assistance Act
of 1961, as amended? ...................................................................................................... 4

     MCC Followed Sections 614(d), 616,
     and 619 of the Millennium Challenge Act
     of 2003 ........................................................................................................................ 4

     MCC Followed Section 632(b) of the
     Foreign Assistance Act of 1961 .................................................................................. 6

Did the Millennium Challenge Corporation properly monitor
and manage its interagency agreements to verify that they
achieved their intended results? ....................................................................................... 7

     MCC Properly Monitored and Managed
     its Interagency Agreements ........................................................................................ 7


Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) has entered into several interagency
agreements to execute various program and administrative aspects of its operations.
Under section 632(b) of the Foreign Assistance Act of 1961, as amended, MCC may use
the services and facilities of, or procure commodities from, any U.S. Government
agency. Further, under section 619(b) of the Millennium Challenge Act of 2003, MCC is
also permitted to allocate funds for the costs of implementing its Threshold Program
activities, awarded to countries whose plans demonstrate a meaningful commitment to
reform and a high likelihood of improving their low score on one of MCC’s 17 policy
indicators. USAID, working with MCC, is currently the primary agency overseeing the
implementation of the Threshold Program. Other U.S. Government agencies may also
be providing assistance for the Threshold Program. See page 2 for details.

The Government Accountability Office and some inspectors general found cases in
which interagency contracting had not been managed properly to ensure that the
Government was receiving the best value for its investment (see page 2). Therefore, the
Office of Inspector General conducted this audit to determine whether MCC has
established effective internal controls, provided clear definitions of roles and
responsibilities, and provided training to help ensure the proper use of its interagency
agreements (see page 3). The audit also determined whether MCC had established
policies to ensure compliance with Governmentwide standards related to the
management of interagency contracting (see page 3).

The audit found that MCC had policies and procedures in place to provide a reasonable
assurance that interagency agreements were being managed to ensure that the
Government was receiving the best value for its investment (see page 4). Further, MCC
had policies and procedures that delineated the responsibilities of the contracting
officer’s technical representative assigned to oversee each interagency agreement and
to direct the work of the servicing agency (see page 7). Activities associated with the
interagency agreements were billed through the Intragovernmental Payment and
Collection system, using accounting classification information provided in the
agreements (see page 8). For the most part, all deliverables required by the
agreements were completed as required (see page 8).




                                                                                      1
BACKGROUND
In recent years, U.S. Government agencies have been making greater use of
interagency agreements, whereby agencies can procure many goods and services by
using another agency’s services or existing contracts awarded by other agencies. An
agency can enter into an interagency agreement with a servicing agency and transfer
funds to the servicing agency. The servicing agency will then conduct acquisitions or
order directly from its existing contract. Interagency contracts are designed to leverage
the Government’s aggregate buying power and simplify procurement of commonly used
goods and services. Interagency agreements offer improved efficiency and timeliness in
the procurement process.

Although interagency agreements can provide the advantages of timeliness and
efficiency, use of these vehicles can also pose risks if they are not properly managed.
According to the Government Accountability Office (GAO), a number of factors make
interagency agreements high-risk activities, including their rapid growth in popularity and
their use by some agencies that have limited expertise with this contracting method.
Ultimately, they create a much more complex procurement environment in which
accountability has not always been clearly established. Because of these and other
issues, the GAO and some inspectors general have found cases in which interagency
contracting has not been managed properly to ensure that the Government was
receiving the best value for its investment.

The Millennium Challenge Corporation (MCC), as a part of the process of concluding
compacts with eligible countries and awarding grants, performs due diligence activities
to assess the viability of proposed assistance projects. These activities include
assessing the advisability of certain projects and the adequacy of certain policies and
procedures associated with investing in a country’s proposal prior to the entering into a
compact. MCC has entered into several interagency agreements to execute various
program and administrative aspects of its operations. MCC intends to turn to other
agencies, such as the U.S. Army Corps of Engineers, that have expertise in a given field
to assess infrastructure elements of an eligible country’s proposal and to assist in these
oversight activities.

MCC’s Threshold Program agreements are awarded to countries whose plans
demonstrate a meaningful commitment to reform and a high likelihood of improving their
low score on one of MCC’s 17 policy indicators. 1 USAID, working with MCC, currently is
the primary agency overseeing the implementation of the Threshold Program. Other
U.S. Government agencies may also be providing assistance to the Threshold Program.




1
    See the list of MCC policy indicators at http://www.mcc.gov/selection/indicators/index.php.


                                                                                                  2
AUDIT OBJECTIVES
The Office of the Assistant Inspector General for the Millennium Challenge Corporation
conducted this audit as part of its fiscal year 2008 audit plan. The objectives of this audit
were to answer the following questions:

   •   Did the Millennium Challenge Corporation establish effective management
       controls for deciding on the use of section 614(d) of the Millennium Challenge Act
       of 2003 and sections 632(a) and (b) of the Foreign Assistance Act of 1961, as
       amended?

   •   Did the Millennium Challenge Corporation properly monitor and manage its
       interagency agreements and memorandums of agreement to verify that they
       achieved their intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           3
AUDIT FINDINGS
Did the Millennium Challenge Corporation establish effective
management controls for deciding on the use of section 614(d)
of the Millennium Challenge Act of 2003 and sections 632(a)
and (b) of the Foreign Assistance Act of 1961 as amended?

The Millennium Challenge Corporation (MCC) had policies and procedures in place to
provide a reasonable assurance that interagency agreements were being managed to
ensure that the Government was receiving the best value for its investment. MCC did
establish effective management controls to ensure that the process for deciding on the
use of sections 614(d) [Powers of the Corporation: Related Provisions- Other
Authorities] and 616 [Assistance to Certain Candidate Countries] of the Millennium
Challenge Corporation Act of 2003 and sections 632(a) and (b) of the Foreign
Assistance Act (FAA) of 1961, as amended, were effective. MCC established polices
and procedures for the use of interagency agreements 2 in Chapter 17 of the Contracts
Operating Manual (COM) under the following authorities: section 632(b) of the FAA
and section 619(b) of the Millennium Challenge Act. These criteria provided guidance
on selecting interagency agreements and evaluating a servicing agency’s performance.
Under section 616 of the Millennium Challenge Act, MCC established a policy, called
the Threshold Program, which authorized assistance to prepare a candidate country to
become eligible for compact funding. These areas are discussed below.

MCC Followed Sections 614(d),
616, and 619 of the Millennium Challenge Act of 2003
Under section 614(d) of the Millennium Challenge Act of 2003 (P.L. 108-199, Division
D, Title VI), MCC is authorized to enter into interagency agreements using the
administrative authorities found in the FAA of 1961, as amended. MCC usually decides
to use interagency agreements because other U.S. agencies can be acquired quickly to
supply specialized services not available in-house. Section 616, of the Millennium
Challenge Act, authorizes MCC to assist a candidate country to become eligible for a
Millennium Challenge Compact. MCC created the Threshold Program to help assist
candidate countries that demonstrate a significant commitment to meeting the eligibility
criteria but fall short on several indicators. USAID, working with MCC through a
Memorandum of Agreement (MOA), is currently the primary agency overseeing the
implementation of the Threshold Program. MCC transfers funds to USAID as
authorized under section 616 of the Millennium Challenge Act. Other U.S. agencies
may also be providing assistance for the Threshold Program. Under section 619 of the
Millennium Challenge Act, MCC may allocate or transfer funds to any U.S. agency in
order to acquire the services requested in an interagency agreement.
2
 Interagency Agreement or Acquisition (IA) is the term used to describe the procedure by which
an agency needing supplies or services obtains them by using another agency’s contract, the
acquisition assistance of another agency, or both. The IA establishes the general terms and
conditions that govern the relationship between the requesting agency and servicing agency. In
addition, the IA provides information that is required to demonstrate a bona fide need and
authorize the transfer and obligation of funds.


                                                                                            4
Sections 614(d) and 616 – As part of a review to determine whether MCC had
established management controls for sections 614(d) and 616 of the Millennium
Challenge Act, the audit team selected three countries under MCC’s Threshold Program
for review. The Threshold Program is administrated by USAID through a MOA that
transfers funds to USAID as authorized under section 616 of the Act. According to the
MOA between the Millennium Challenge Corporation and the United States Agency for
International Development, Parts F and G under the agreement’s terms and conditions
describe various reports that USAID is required to provide MCC.

MCC was receiving quarterly reports on time from USAID for the three Threshold
Program countries selected for review (Indonesia, Paraguay, and Ukraine). MCC had
also provided adequate oversight for the three countries to include ensuring most
activities were completed, and most targets were either met or exceeded. For example,
in Indonesia, only nine of forty-four activities (20 percent) from the first through fourth
quarters of 2007 needed to be reviewed to determine whether actions were completed.
Various e-mails and other notes indicated that the program managers for the three
countries were effectively monitoring program activities.

The Office of General Counsel for the MCC (OGC) reviewed all interagency
agreements and MOAs used in support of the Threshold Program, as required by
Chapter 17 of the Contracts Operating Manual COM, to determine if they are consistent
with MCC legal authorities. The OGC, which developed the interagency agreement
template, reviewed all interagency agreements to assess the agreements’ ethics and to
verify whether the agreements included complete descriptions of the services needed.
The OGC also reviewed the statement of work (SOW) and how the budget items fit
within funds obligated.

Section 619 – MCC complied with section 619 by allocating funds to other U.S.
agencies for services it had acquired under an interagency agreement. For example,
MCC initiated an interagency agreement with the Office of Personnel Management
(OPM) to provide expert contractor support to address specific training, learning,
knowledge capture, knowledge management, and strategic human resource
management requirements. Under the interagency agreement, MCC issued to OPM a
task order requiring that a management plan be developed for a Human Capital and
Enterprise Training course. OPM hired Colleague Consulting, a contractor, to develop
the management plan. When the contractor completed the plan, it sent an invoice to
the National Business Center (NBC) through the Intergovernmental Payment and
Collection (IPAC) system. NBC forwarded an administrative approval form, the invoice,
and supporting documents to the contracting officer’s technical representative (COTR)
for approval. The COTR returned the approval form to the NBC verifying that the
services had been received and the contractor should be paid. The COTR also tracked
expenditures made on the interagency agreement to ensure that funds were not
exceeded and were used for authorized purposes.

MCC had established policies and procedures for the use of interagency agreements in
Chapter 17 of the COM and also used section 17.5 of the Federal Acquisition Regulation
under as guidance for interagency agreements. These criteria provided guidance on
selecting agreements and evaluating a servicing agency’s performance. In addition, the
criteria specify that the COTRs would be issued designation letters that outlined their
responsibilities for the designated interagency agreement or contract. Briefly, the COTR


                                                                                          5
is to monitor and evaluate the contractor’s performance, document material deficiencies,
and recommend in writing any changes needed in the scope of the contract. The
designation letter also noted that the COTR administers financial management
responsibilities by reviewing the contractor’s vouchers or invoices, by providing or
denying approval, and by monitoring the financial status of the contract to ensure that
the level of funding is the minimum necessary.

Chapter 17 of the Contracts Operating Manual – MCC established policy for the use
of interagency agreements in Chapter 17 of the COM, which outlined the procedures for
processing interagency agreements under the Economy Act, 31 U.S.C. 1535; section
632(b) of the FAA of 1961, as amended; and section 619(b) of the Millennium Challenge
Act of 2003, which is modeled on FAA section 632(a) agreements. The OGC reviewed
all interagency agreements and MOAs used in support of the Threshold Program, as
required by Chapter 17 of the COM. Appropriate authorizing officials (contracting
officers) were involved in the interagency agreement process and had also signed the
agreements. Each interagency agreement and MOA had been assigned to a COTR for
oversight and monitoring. All the COTRs for the interagency agreements reviewed had
received their designation letters.

According to Chapter 17, section 17.3, of the COM, as a Government corporation, MCC
is expressly excluded from the scope of Office of Management and Budget (OMB)
Circular A-76. Consequently, MCC contracting officers are not required to do an
analysis under that circular to determine whether MCC should compete the activity or
enter into an interagency agreement. However, as of October 1, 2008, OMB will require
agencies to ensure that decisions to use interagency acquisitions are supported by best
interest determinations. The managing director, Contracts and Grants Management
Division, told the audit team that he planned to incorporate this new policy into Chapter
17 and also planned to use the model agreement contained in appendix 3 of OMB
Circular A-76.

MCC Followed Section 632(b) of
the Foreign Assistance Act of 1961
MCC may obtain services of another agency under section 632(b) of the FAA, which is
available to MCC under section 614(d) of the Millennium Challenge Act. MCC usually
decides to use interagency acquisition agreements because other U.S. agencies can
quickly supply specialized services not available in-house. For example, through an
interagency agreement, the U.S. Department of Agriculture (USDA) will provide
expertise on disaster mitigation and integrated pest management.

Pursuant to FAA section 632(b), the program office should prepare the background,
statement of work, budget, and report sections of an interagency agreement. Because
FAA section 632(b) does not itself prescribe agreement formats, it is acceptable to use
another agency’s agreement format. MCC’s OGC initially developed the interagency
agreement template, which encompassed the requirements set forth in FAA section
632(b). MCC used the template to create eight of the nine interagency agreements
reviewed (89 percent) and used a management plan for the ninth. The management
plan for interagency agreement no. 07-0174-CON-42 detailed background, tasks,
project summary, time schedules, and total costs. Therefore, the management plan
covered the provisions under FAA section 632(b).



                                                                                       6
Funds are considered obligated only after both parties have signed the interagency
agreement. Both parties signed seven of the eight interagency agreements reviewed
(87.5 percent) either on the same day or within 9 days. For the eighth interagency
agreement, the servicing agency signed the interagency agreement 2 months after
MCC’s signature. MCC stated that it sometimes had difficulty obtaining signatures from
servicing agencies. In MCC’s experience, the servicing agency’s program or budget
personnel who were managing the eighth interagency agreement did not understand
the importance of signing the agreement on time or at all.

Because MCC had established policies and procedures to provide effective
management controls over the use of section 614(d) of the Millennium Challenge Act
and sections 632(a) and (b) of the FAA of 1961, as amended, this audit does not make
any recommendations.


Did the Millennium Challenge Corporation properly monitor and
manage its interagency agreements to verify that they achieved
their intended results?
MCC did properly monitor and manage its interagency agreements and MOAs to verify
that they achieved their intended results. The Contracting Office (CO) created a
recording system to track all interagency agreements. A spreadsheet was developed
that included the servicing agency, service to be provided, contract/interagency
agreement number, amount, time period, and COTR. The audit team based its review
on the 94 interagency agreements, valued at $63,759,658, which MCC had issued from
February 2004 through February 20, 2008. MCC had assigned a COTR to oversee
each section 632(b) Reimbursement Agreement and to direct the work of the servicing
agency. The COTRs ensured that the funds were being spent on the requested scope
of work and that the servicing agency was providing the required deliverables and
financial reports.

MCC Properly Monitored and
Managed Its Interagency
Agreements
The CO worked with the servicing agency to develop the interagency agreement. The
CO reviewed and edited the SOW, draft agreement, or final agreement. The CO signed
the Order for Supplies and Services (Optional Form 347), which is attached to the
interagency agreement when the agreement is completed. The CO also assisted the
servicing agency with editing and finalizing the interagency agreement. The MCC
COTRs requested, in writing, that servicing agencies perform specific tasks under the
interagency agreements. MCC and the servicing agencies signed eleven of thirteen task
orders (85 percent) within 2 days of each other’s signatures. MCC also issued eight
SOWs within three interagency agreements. If changes were made to a SOW or task
order, MCC issued a modification that both the servicing agency and MCC signed. The
SOWs or task orders described the services to be performed, deliverables, performance
periods, and cost data. The MCC COTRs ensured that contractors’ work as described in
the SOWs was completed in accordance with the agreement, based on reviewing the


                                                                                     7
required quarterly reports.

The interagency agreements identified the deliverables the servicing agencies were
required to submit to MCC. For example, deliverables could be a trip report from a site
visit or final reports produced after each task order. After comparing deliverables to the
SOW or task order, the audit team found that desired results were achieved for the
agreements that were reviewed. The MCC COTRs maintained regular contact with the
servicing agency. For example, the COTR contacted the U.S. Geological Survey’s
(USGS) point of contact at least monthly by e-mail to discuss such topics as the
monitoring plan for water resources, proposed USGS activities in Cape Verde, and the
shift in the Cape Verde geographic information system coverage. Further, one COTR
stated that she communicated at least once a week with the USDA. In addition, the
COTR conducted a site visit to Namibia in October 2006. The COTR worked with the
MCA Namibia Agriculture Team to understand the rationale behind MCC’s investment in
livestock, irrigated agriculture, and natural products industries. She also met with USDA
personnel during the trip.

The audit team’s review of invoices for several interagency agreements demonstrated
that the servicing agency submitted invoices for approval directly to the NBC for
payment through the IPAC system. The NBC would send the COTR an approval form
that included supporting documents, such as the invoice and task order or SOW. The
COTR had 3 days to approve the payment before penalties would be incurred. The
COTRs also maintained invoices from the NBC in their files. For example, for the
interagency agreement with the U.S. Forest Service, the COTR received the IPAC
payment package from the NBC. However, the COTR did not approve the invoice
because he did not have sufficient supporting documents to make the determination.
The COTR finally approved the invoice after obtaining the necessary documents from
the NBC.

Because MCC properly monitored and managed its interagency agreements to verify
that the agreements achieved the intended results, this audit is not making any
recommendations.




                                                                                        8
EVALUATION OF
MANAGEMENT COMMENTS
Management agreed with the audit findings and chose not to provide written comments.




                                                                                   9
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The assistant inspector general for the Millennium Challenge Corporation (MCC)
conducted this audit of MCC’s management of its interagency agreements and
memorandums of agreement (MOAs) to verify compliance and/or conformity with section
614(d) of the Millennium Challenge Act of 2003 (the Millennium Challenge Act) and
sections 632(a) and (b) of the Foreign Assistance Act (FAA) of 1961, as amended. We
conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.

In conducting this audit, we assessed MCC adherence to provisions of section 632(b) of
the FAA of 1961 versus sections 614(d) and 619(b) of the Millennium Challenge Act for
interagency agreements and MOAs awarded by MCC during calendar years 2005 to
2007. The audit fieldwork was conducted from February 13 through July 24, 2008, at
MCC headquarters in Washington, DC.

Methodology
In planning and performing the audit work, we interviewed MCC officials in the
departments of Administration and Finance, Policy and International Relations, and
Compact Implementation, and the Office of General Counsel. These interviews were
conducted to obtain information on, for example, use of section 632(b) of the FAA of
1961 versus sections 614(d) and 619(b) of the Millennium Challenge Act ; and extent of
monitoring conducted by MCC staff of interagency agreements under section 632(b) and
MOAs issued for the Threshold Program under sections 614(d) and 619(b) of the
Millennium Challenge Act .

In addition, we performed the following steps:

•   Judgmentally selected 11 interagency agreements (valued at $40,648,675) out of 94
    agreements (valued at $63.76 million), along with 8 task orders (valued at
    $5.5 million) out of 15 task orders (valued at $7.6 million) under a master interagency
    agreement with the U.S. Army Corps of Engineers, covering the period February
    2004 through February 20, 2008. From these documents provided by MCC officials,
    we determined whether MCC complied with sections 632(a) and (b) of the FAA of
    1961, as amended, and sections 614(d) and 619(b) of the Millennium Challenge Act.

•   Reviewed 3 (valued at $135.65 million) out of 22 MOAs (valued at $419.18 million)
    with USAID and the departments of Treasury and Justice for the Threshold Program.

•   Reviewed the files of contracting officer’s technical representatives (COTRs) to
    identify the oversight and monitoring performed by the COTRs.



                                                                                        10
•   Reviewed interagency agreements and the MOAs to identify deliverables based on
    the statement of work described in the agreement and to determine whether
    deliverables had been received and whether the COTR had been actively monitoring
    the agreements.




                                                                                 11
                                                                        APPENDIX II



MANAGEMENT COMMENTS
Management agreed with the audit findings and chose not to provide written comments.




                                                                                  12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
